STATE OF NEW YORK
OFFICE OF THE ATTORNEY GENERAL
LETITIA JAMES

BARBARA D. UNDERWOOD
SOLICITOR GENERAL
DIVISION OF APPEALS & OPINIONS

ATTORNEY GENERAL

June 28, 2021
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Devar Hurd v. Stacey Fredenburgh, No. 20-1752
Dear Mr. Harris:
I write on behalf of respondent Stacey Fredenburgh to request an extension of
time to oppose the petition for a writ of certiorari in this matter. The current deadline
is July 16, 2021, and respondent respectfully seeks an extension of thirty days, up to
and including August 16, 2021 (the thirtieth day falls on Sunday August 15), to file
her opposition.
Petitioner’s counsel has authorized me to state that petitioner consents to this
request.
Thank you very much for your consideration.
Respectfully submitted,
Barbara D. Underwood
Solicitor General
cc:

David M. Shapiro (via email)
Counsel for Petitioner

28 LIBERTY STREET, NEW YORK, NY 10005-1400 • PHONE (212) 416-8020 • FAX (212) 416-8962 *NOT FOR SERVICE OF PAPERS
WWW.AG.NY.GOV

